                                                                             Report No. DODIG-2014-107



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 8, 2014




                     Fort Knox and the Army Need To
                     Improve Internal Controls for Utility
                     Energy Services Contracts




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Fort Knox and the Army Need To Improve Internal
                                Controls for Utility Energy Services Contracts



September 8, 2014                                 Finding (cont’d)

Objective                                         audit, the U.S. Army Installation Management Command issued
                                                  guidance to correct the problems we found, so we will not make a
Our audit objective was to determine whether      recommendation to this organization.
the contract and task orders related to the
energy program at Fort Knox, Kentucky,
were properly awarded and administered.
                                                  Recommendations
We reviewed 108 task orders, totaling about       We recommend the Garrison Commander, Fort Knox, Kentucky:
$270 million, awarded by Fort Knox officials,
                                                     •	 Establish policies and procedures to track energy savings
related to the energy program at Fort Knox.
                                                        for individual projects awarded under UESC task orders.

Finding                                              •	 Coordinate with appropriate contracting officials and
                                                        establish internal controls over the process for awarding
Fort Knox officials did not properly award and
                                                        and administering UESC task orders under contract
administer 108 task orders, valued at about
                                                        DABT23-84-C-0089 and for any future energy contracts.
$270 million, for energy-saving projects. In
addition, Fort Knox officials could not support   We recommend the Director, Mission and Installation Contracting
the claim that projects achieved the projected    Command:
energy savings. This occurred because Fort
Knox officials did not:                              •	 direct Fort Knox contracting officials to discontinue
                                                        awarding task orders under contract DABT23-84-C-0089
   •	 establish adequate internal controls over         until adequate internal controls are in place;
      the award and administration of the task
      orders, or                                     •	 develop standard operating procedures and contracting
                                                        officer guidance to complete fair and reasonable price
   •	 determine whether the Government                  determinations for UESCs; and
      received fair and reasonable prices.
                                                     •	 review the contracting officer’s actions in negotiating and
As a result, Fort Knox officials spent millions         determining prices for contract DABT23-84-C-0089 task
on projects that may not have achieved                  orders and, as appropriate, initiate actions to hold the
sufficient energy savings to repay the utility          contracting officer accountable.
company’s investment as required. This means
the projects might not meet Department of
Defense financing requirements for energy-
                                                  Management Comments and
savings projects using Utility Energy Services    Our Response
Contracts (UESC), and Fort Knox officials do      Comments from the Garrison Commander, Fort Knox, were
not have assurance that they paid fair and        responsive. We did not receive comments from the Director,
reasonable prices.     Furthermore, the lack      Mission and Installation Contracting Command. We request the
of adequate internal controls increases the       director to provide comments to the final report. Please see the
risk of fraud, waste, and abuse. During our       Recommendations Table on the back of this page.

Visit us at www.dodig.mil                                            DODIG-2014-107 (Project No. D2013-D000CG-0205.000) │ i
           Recommendations Table
                                                                      Recommendations        No Additional
                                        Management                    Requiring Comment    Comments Required
             Garrison Commander, Fort Knox, Kentucky                                       1.a and 1.b.
             Director, Mission and Installation Contracting Command   2.a, 2.b, and 2.c.

             Please provide Management Comments by October 8, 2014.




ii │ DODIG-2014-107 (Project No. D2013-D000CG-0205.000)
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                    4800 MARK CENTER DRIVE
                                 ALEXANDRIA, VIRGINIA 22350-1500


                                                                                    September 8, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Fort Knox and the Army Need To Improve Internal Controls for Utility Energy
         Services Contracts (Report No. DODIG-2014-107)

We are prov iding this repor t for rev iew and comment. The Director, Mission and Installation
Cont ract ing Command, did not respond to the draf t repor t; however, we considered comments
f rom t he Garrison Commander, Fort Knox, Kentuck y, when preparing t he final report. Fort Knox
of ficials did not properly award and administer 108 task orders, valued at about $270 million,
from contract DABT23-84-C-0089, in energy-saving project s. In addition, For t K nox off icials
could not suppor t the claim that projects achieved the projected energy savings. As a result,
For t K nox off icials spent millions on projec t s t hat may not have achieved sufficient energ y
sav ings to pay back the utilit y company ’s invest ment as required, and t hey have no assurance
they received fair and reasonable prices. Furthermore, the lack of adequate internal controls
increases t he risk of f raud, waste, and abuse.

DoD Direct ive 7650.3 requires that all recommendations be resolved promptly. Comments
from t he Garrison Commander, Fort Knox, Kent ucky, addressed all the specifics of the
recommendat ions, and we do not require addit ional comment s. We request comments f rom t he
Director, Mission and Installat ion Cont rac ting Command, on Recommendat ions 2.a, 2.b, and 2.c
by October 8, 2014.

Please send a PDF f ile containing your comments to audcmp@dodig.mil. Copies of your comments
must have the ac tual sig nat ure of t he aut horizing of ficial for your organization. We cannot accept
the /Sig ned/ sy mbol in place of t he ac tual sig nat ure. If you arrange to send classified comment s
elec tronically, you must send t hem over t he SECRET Internet Protocol Router Net work (SIPR NET ).

We appreciate t he courtesies ex tended to the staff. Please direct questions to Deborah L. Culp
at (703) 604-9335 (DSN 664-9335).




                                                    Amy J. Frontz
                                                    Principal Assistant Inspector General
                                                       for Auditing




                                                                                                 DODIG-2014-107 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________4

                  Finding. Fort Knox Utility Energy Services
                  Contract Projects May Not Have Generated
                  Required Energy Savings _______________________________________________________5
                  Adequate Internal Controls Not Established __________________________________________________5
                  Fort Knox Officials Did Not Make Fair and Reasonable Price Determinations____________ 13
                  Conclusion______________________________________________________________________________________ 15
                  Management Comments on the Finding and Our Response________________________________ 16
                  Recommendations, Management Comments, and Our Response__________________________ 17
                  Management Comments Required ___________________________________________________________ 19

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 20
                  	   Review of Documentation and Interviews_______________________________________________ 20
                  	   Use of Computer-Processed Data_ _______________________________________________________ 21
                  	   Use of Technical Assistance ______________________________________________________________ 21
                  Appendix B. Prior Coverage__________________________________________________________________ 22
                  Appendix C. Contract Comparison ___________________________________________________________ 24
                  Appendix D. Task Orders Reviewed _________________________________________________________ 25




iv │ DODIG-2014-107
Contents (cont’d)
Appendix E. Standards for Internal Control in the Federal Government _________________ 31
	   Control Environment______________________________________________________________________ 32
	   Risk Assessment___________________________________________________________________________ 32
	   Control Activities__________________________________________________________________________ 32
	   Information and Communications_______________________________________________________ 33
	   Monitoring_________________________________________________________________________________ 33
Appendix F. Reviewer of Task Order Award Documentation_______________________________ 35

Management Comments
U.S. Army Garrison, Fort Knox________________________________________________________________ 39

Acronyms and Abbreviations______________________________________________ 44




                                                                                                      DODIG-2014-107 │ v
                                                                                        Introduction




Introduction
Objective
Our audit objective was to determine whether the contract and task orders related to
the energy program at Fort Knox, Kentucky, were properly awarded and administered.
Specifically, we reviewed utility contract DABT23-84-C-0089, 3 modifications, and
108 task orders, totaling about $270 million, awarded under the contract.  See
Appendix A for scope and methodology and Appendix B for prior coverage.


Background
According to the Department of Energy, the Federal Government is the largest energy
consumer in the United States. Legislation and presidential executive orders require
and enable Federal agencies to implement energy-efficiency, water-conservation, and
renewable-energy projects. For example, under federally mandated energy-reduction
goals, all Federal facilities must reduce their energy consumption per square foot
of building space by 3 percent annually through the end of FY 2015, or 30 percent by
the end of FY 2015, compared with the agency’s energy use in FY 2003.

Federal facilities nationwide have historically needed to cut energy use but lacked
funding to implement energy-conserving upgrades.  Federal agencies, based on
42 United States Code (U.S.C.) 8256, “Incentives for Agencies,” are eligible to use
utility incentive programs to procure financing for comprehensive energy projects.
Therefore, the heads of executive departments and agencies have the contracting
flexibility to use Utility Energy Services Contracts (UESCs) and Energy Savings
Performance Contracts (ESPCs) to complete energy-savings projects when direct
funding is not available. UESCs and ESPCs provide a cost-effective way for agencies
to reduce energy consumption without incurring up front capital costs.


UESCs
According to the U.S. Department of Energy’s Federal Energy Management Program,
UESCs allow Federal agencies to contract with utility companies to implement facility
energy-reduction projects.  To fund project capital costs, agencies may arrange all
financing through the utility company, use congressional appropriations, or do both.
If the project is financed through the utility provider, the Federal agency repays it
over the contract term from the energy-cost savings generated by the project, plus
interest.  According to the contracting officer’s representative, under a UESC, the
contractor or the Government, or both, identifies projects that will reduce energy
consumption. If the parties agree to implement one or more “energy conservation


                                                                                    DODIG-2014-107 │ 1
Introduction



                 opportunities,” then the parties negotiate a price, and the contracting officer issues
                 a task order to complete the project. Figure 1 shows a Hybrid Geothermal Pond
                 constructed under a UESC task order for the purpose of heat exchange for the
                 Maude Complex, Fort Knox.




                     Figure 1. Hybrid Geothermal Pond
                     Source: DOD OIG



                 ESPCs
                 By using ESPCs, Federal agencies can also complete energy-savings projects
                 without using up front capital costs or special congressional appropriations.
                 Installation officials may enter into ESPCs for terms up to 25 years, as authorized by
                 42 U.S.C. 8287, “Authority to Enter into Contracts.” In an ESPC, a Federal agency
                 partners with an energy-service company, which identifies potential projects, designs
                 and constructs a project to meet the agency’s needs, and arranges the funding.
                 The energy-service company guarantees the projects will generate energy-cost
                 savings, and the agency pays the contractor directly from actual performance savings
                 that resulted from the contractor’s actions. The agency accrues all additional cost
                 savings after the contract ends. See Appendix C for a comparison of ESPCs and UESCs.


                 Defense Policy on Funding UESCs
                 DoD Instruction 4170.11, “Installation Energy Management,” December 11, 2009,
                 recognizes that partnerships with the private sector through alternative financing
                 mechanisms, such as UESCs, are a crucial tool for financing energy-efficiency measures
                 and allowing installations to improve their infrastructure. The Instruction requires that
                 any funds a DoD Component uses to pay for a financed energy project:

                                shall be from funds made available through the same project’s recurring
                                or nonrecurring energy or water-related cost savings. Payments may
                                be made only when the project is determined to be life cycle cost


2 │ DODIG-2014-107
                                                                                                                                  Introduction



                effective and when actual savings generated from the financed project
                exceed the payment amount in the same year. Non-recurring savings,
                or ancillary savings, are those such as utility rebates and avoided
                costs from repairs, replacements, retrofits, or capital improvements
                that have been budgeted for but are no longer required because of
                the financed energy project. Recurring savings are reductions in
                energy, water, or wastewater consumption; maintenance; or operations
                costs because of the financed energy project. The basis for all cost
                savings used to pay for these projects must be fully documented in
                the contract file.


Fort Knox
Fort Knox officials entered into a UESC in 1996, by modifying contract DABT23-
84-C-0089, with their utility provider, Nolin Rural Electric Cooperative Corporation
(RECC).       Fort Knox officials issued a contract modification to install new, energy-
efficient equipment and systems or upgrading existing ones and pay for these
upgrades with savings on Fort Knox’s energy bills.1 Fort Knox contracting officials
issued 108 task orders under contract DABT23-84-C-0089, with a total value
of about $270 million2 in project investment as of April 2014.                                         Figure 2 shows
ongoing construction for geothermal heating and cooling upgrades at Fort Knox.
See Appendix D for a list of all task orders Fort Knox officials have issued under
contract DABT23-84-C-0089.




  Figure 2. Ongoing Construction of Underground Loop of Pipes
  Source: DOD OIG


	1	
    This modification was issued under authority of 10 U.S.C. 2865 and 42 U.S.C. 8256. Title 10 U.S.C. 2865, “Energy savings
    at military installations,” was repealed in 2006 and replaced in part by 10 U.S.C. 2913, “Energy savings contracts and
    activities.”
	2	
    As of April 2014, the task order’s value, including modifications, totals about $310 million.


                                                                                                                               DODIG-2014-107 │ 3
Introduction



                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls.     Fort Knox officials
                 did not properly award 108 task orders, valued at about $270 million, from
                 contract DABT23-84-C-0089 because they did not establish internal controls over
                 the award and administration of the task orders. We will provide a copy of the report
                 to the senior official responsible for internal controls in the Department of the Army.




4 │ DODIG-2014-107
                                                                                                                                 Finding




Finding
Fort Knox Utility Energy Services Contract Projects May
Not Have Generated Required Energy Savings
Fort Knox officials did not properly award and administer 108 task orders, valued
at about $270 million, from contract DABT23-84-C-0089, in energy-saving projects.
In addition, Fort Knox officials could not support the claim that projects achieved
the projected energy savings. This occurred because Army and Fort Knox officials
did not:

              •	 establish internal controls over the award and administration of the task
                 orders, or

              •	 determine whether the Government paid a fair and reasonable price.

As a result, Fort Knox officials spent millions on projects that may not have achieved
sufficient energy savings to pay back the utility company’s investment as required.
These projects may therefore not meet Department of Defense financing requirements
for UESC energy-savings projects, and Fort Knox officials have no assurance that
they received fair and reasonable prices. Furthermore, the lack of adequate internal
controls increases the risk of fraud, waste, and abuse.



Adequate Internal Controls Not Established
Army and Fort Knox officials did not establish adequate
internal controls for the process of awarding and
administering 108 task orders for energy-savings                                        Army and Fort
                                                                                       Knox officials did
projects         under       contract       DABT23-84-C-0089                        not establish adequate
valued at about $270 million.                       According to                   internal controls for the
the Government Accountability Office (GAO),3                                       process of awarding and
                                                                                    administering 108 task
“Standards for Internal Control in the Federal
                                                                                  orders for energy-savings
Government,” November 1999, there are five                                         projects valued at about
standards of internal control in Government: Control                                     $270 million.
Environment, Risk Assessment, Control Activities,
Information and Communications, and Monitoring. These

	3	
      GAO was known as the General Accounting Office when it published “Standards for Internal Control in the Federal
      Government” in November 1999. The Federal Managers’ Financial Integrity Act of 1982 required the GAO to issue
      standards for internal control in government. The standards provide the overall framework for establishing and
      maintaining internal control and for identifying and addressing major performance and management challenges and
      areas at greatest risk of fraud, waste, abuse, and mismanagement.




                                                                                                                        DODIG-2014-107 │ 5
Finding



                 standards define the minimum level of quality acceptable for internal controls in
                 Government and provide the basis against which internal controls are to be
                 evaluated. Army and Fort Knox officials did not meet the control activities standard.
                 See Appendix E for further information on GAO, “Standards for Internal Control in
                 the Federal Government.”


                 Lack of Control Activities
                 Army and Fort Knox officials did not establish control activities for the process
                 of awarding and administering task orders under contract DABT23-84-C-0089.
                 The control activities that Fort Knox and Army officials need to improve are:

                         •	 oversight of UESC projects above the installation level,

                         •	 installation-level review of the Fort Knox Energy Program Manager’s role
                            in managing UESC projects, and

                         •	 segregation of duties related to the UESC projects.

                 According to GAO, “Standards for Internal Control in the Federal Government,”
                 control activities are the policies, procedures, techniques, and mechanisms that
                 enforce management’s directives.     Control activities should occur at all levels and
                 functions of the entity, including a wide range of diverse activities such as approvals,
                 authorizations, verifications, performance reviews, and the creation and maintenance
                 of related records, which provide evidence of execution of these activities as well as
                 proper documentation. Some examples of control activities are:

                         •	 top-level reviews of actual performance,

                         •	 reviews by management at the functional or activity level,

                         •	 management of human capital,

                         •	 establishment and review of performance measures and indicators, and

                         •	 segregation of duties.

                 Army Regulation 11-2, “Managers Internal Control Program,” March 26, 2012,
                 prescribes policies and responsibilities for the Army Managers’ Internal Control
                 Program. Heads of Army commands, such as the U.S. Army Installation Management
                 Command, are responsible under Army Regulation 11-2 for understanding and
                 applying the GAO standards for internal control in the Federal Government and
                 carrying out the Managers’ Internal Control Program within their organizations.




6 │ DODIG-2014-107
                                                                                                   Finding



The Army Needs Higher Level Oversight of the UESC Program
U.S. Army Installation Management Command officials did not establish top-level
reviews of actual UESC installation program performance and, until recently, have
performed no direct oversight of the UESC program. In particular, the Army does
not specify how UESCs should be administered, leaving this to the discretion of
the installations. Additionally, before March 2014, the Army did not require UESC
projects to be approved above the installation level, although some of the projects
are just as costly as ESPC projects.

The Army, however, exercises much more oversight and guidance over similar ESPCs.
Specifically, the Department of the Army Policy Guidance for Implementation of an
ESPC (Version 3, November 2008), states that the proper approving official for an
ESPC project depends on the total dollar amount the Government will be obligated
to pay.    Officials from Headquarters, Installation Management Command review
and approve all ESPC projects below $10 million and, before awarding an ESPC task
order, notify officials from the Office of the Assistant Chief of Staff for Installation
Management, who approve all ESPC projects more than $10 million. Additionally,
as part of its oversight of the ESPC Program, the Office of the Assistant Chief of
Staff for Installation Management requests that all Army activities submit a “Notice
of Intent to Pursue an ESPC Project Task Order.”          The installation must submit
the notice to the Office of the Assistant Chief of Staff for Installation Management
once the installation receives the initial proposal but not less than 30 days before
accepting the initial proposal.

An installation, when submitting an ESPC project for review and approval, must also
supply the following documentation, which higher authorities will evaluate:

          •	 a description/scope of the project indicating boundaries, technologies, and
            which responsibilities belong to the energy-services company and which
            belong to the installation;

          •	 the installation’s requirement for the project—identifying potential benefits
            as well as costs and problems to be faced without the project;

          •	 a statement regarding the absence of appropriated funds;

          •	 the installation’s ability to administer the project—identifying who will
            perform the inspection, quality control, measurement and verification, etc;

          •	 the installation’s ability to isolate the proposed ESPC project savings
            from other ongoing energy-savings initiatives;



                                                                                          DODIG-2014-107 │ 7
Finding



                             •	 the installation’s ability to establish an accurate baseline;

                             •	 the installation’s ability to monitor savings; and

                             •	 the estimated savings the ESPC will generate and how savings will be
                                divided between the Energy Services Company and the Government.

                 In comparison, the Army did not require approval of UESC projects at the
                 headquarters level nor notification from Fort Knox officials before the Fort Knox
                 contracting officer awarded task orders for large amounts. The Fort Knox contracting
                 officer awarded 48 task orders over $1 million, and 8 of those were more than
                 $10 million. For example, the Fort Knox contracting officer awarded task order 79
                 (June 27, 2006), for geothermal heating and cooling systems and energy-management
                 controls in various buildings on Fort Knox, for $31,831,340.36.                In addition, no
                 authority above the installation monitored the savings or ensured that someone at
                 the installation monitored the savings for this or any other UESC project. Figure 3
                 shows geothermal heating and cooling upgrades like the one completed with task
                 order 79 at Fort Knox.




                     Figure 3. Geothermal Heating and Cooling Upgrades
                     Source: DOD OIG



                 According to a Fort Knox official, there is a lack of regulation over the UESC program.
                 The Fort Knox official stated that executive orders mandate bases to reduce energy
                 consumption and allow the use of financing tools such as UESCs but do not provide
                 guidance on how to use those tools.




8 │ DODIG-2014-107
                                                                                                 Finding



During our audit, on March 13, 2014, the U.S. Army Installation Management
Command headquarters issued guidance in support of the ESPC and UESC processes.
The guidance requires installations to submit all proposed ESPCs and UESCs
to Headquarters Installation Management Command for review and approval.
Additionally, the guidance is consistent with DoD Instruction 4170.11, in that it
requires garrison funding of financed energy projects to be from funds made
available through the same project’s recurring or nonrecurring energy or water-
related cost savings; and it permits payments to be made only when the project is
determined to be life-cycle-cost effective and when actual savings generated from
the financed project exceed the payment amount in the same year.           Because the
U.S. Army Installation Management Command issued adequate guidance in support
of the UESC process during our audit, we will not make a recommendation for
improvement in this area.


Sufficient Payback on Individual Projects Uncertain
Fort Knox Department of Public Works officials did
not have a method to monitor any of the energy                    Fort Knox
projects performed from task orders awarded                Department of Public
                                                          Works officials tracked
under contract DABT23-84-C-0089 to verify
                                                        energy savings throughout
sufficient payback on investment.      Fort Knox        the installation but did not
Department of Public Works officials tracked              track energy savings by
energy savings throughout the installation             individual projects, making it
                                                         impossible to ensure that
but did not track energy savings by individual             projects were efficient
projects, making it impossible to ensure that                   investments.
projects were efficient investments.    According to
the U.S. Department of Energy’s Federal Energy
Management Program, and the UESC between Fort Knox
and Nolin RECC, when a UESC’s project is financed through the utility company,
the Federal agency must repay the utility company over the contract term from the
energy cost savings generated by the project with interest. Additionally, compliance
with DoD Instruction 4170.11 and U.S. Army Installation Management Command
March 2014 guidance requires the tracking of cost savings by individual project.
Even though Fort Knox Department of Public Works officials tracked energy savings
throughout the installation, they could not ensure that individual projects awarded
from contract DABT23-84-C-0089 generated the energy savings necessary to repay
the cost of the project.




                                                                                        DODIG-2014-107 │ 9
Finding



                 According to the energy program manager, no method was available to track the
                 energy savings by individual UESC project. Fort Knox Department of Public Works
                 officials tracked energy savings only through building report cards.4 The contracting
                 officer awarded task orders that contained projects spanning across multiple
                 buildings; however, some buildings could be part of numerous projects, making it
                 impossible to determine which task order generated the energy savings from each
                 building.         For example, Fort Knox officials awarded four separate task orders for
                 projects performed on building 1730, as well as other buildings on the installation.
                 Therefore, Fort Knox officials did not have a method to identify how much energy was
                 saved from the individual task orders awarded using contract DABT23-84-C-0089.
                 In addition, the energy projects may not have achieved sufficient energy savings
                 to pay back the cost of the project as required—which means they may not meet
                 financing requirements for UESC energy-savings projects.                                      See the Table for the
                 individual task orders containing energy-savings projects for building 1730.

                 Table. Task Orders that Include Building 1730 at Fort Knox
                            Task Order                                            Description of Task Order
                                 18                 Retrofit lighting in building 1730
                                 41                 Install Infrared heat in 5 buildings including 1730
                                                    Install windows in building 4768, and install HVAC-ground coupled heat
                                 47                 pump system in multiple buildings including 1730
                                109                 Make geothermal upgrades in 7 buildings including building 1730


                 Fort Knox officials should establish policies and procedures to track individual projects
                 awarded from UESC task orders.

                 Lack of Segregation of Duties
                 Fort Knox officials did not segregate the duties and responsibilities in key steps in
                 the process for awarding and administering task orders from the contract DABT23-
                 84-C-0089. GAO, “Standards for Internal Control in the Federal Government,” and
                 Army Regulation 11-2, “Managers Internal Control Program,” discusses the importance
                 of “segregation of duties,” explaining that “key duties and responsibilities needed
                 to be divided or segregated among different people to reduce the risk of error or
                 fraud. This should include separating the responsibilities for authorizing transactions,
                 processing and recording transactions, reviewing the transactions, and handling
                 any related assets. No one individual should control all key aspects of a transaction
                 or event.”

                 	 4	
                        Building report cards are itemized documents displaying the consumption of energy for a specific timeframe and building.
                        Each report card contains the baseline use for the building analyzed and the use per square foot. A summary of the report
                        card displays the base use, the current use and the savings in a dollar amount.


10 │ DODIG-2014-107
                                                                                                                      Finding



The energy program manager at Fort Knox, however, was the sole person responsible
for most of the steps in identifying and administering the UESC energy project task
orders. In awarding and administering task orders under contract DABT23-84-C-0089,
according to the energy program manager, he was solely responsible for:

              •	 identifying energy-saving projects, from building-user complaints or
                  contractor suggestions;

              •	 preparing requests for proposals;

              •	 preparing all 108 scope of work documents and signing approvals for
                  49 of the 108 scope of work documents;

              •	 preparing all 108 independent Government cost estimates (IGCEs) and
                  signing approval of 82 of the 108 IGCEs;5

              •	 comparing contractor proposals with the IGCEs;

              •	 preparing all 99 prenegotiation documents and signing approval of
                  98 of 99 prenegotiation documents;

              •	 preparing and signing approval of 95 of 95 price negotiation memorandums;

              •	 preparing and sending the task order package to the contracting officer
                  for approval;

              •	 acting as the contracting officer’s representative for contract DABT23-
                  84-C-0089; and

              •	 receiving and verifying contractor invoices for payment.

Figure 4 is a flow chart of the process Fort Knox officials used to award task orders
under contract DABT23-84-C-0089. It shows that the energy program manager was
involved in 8 of the 10 steps in the process of awarding a task order. He was also
involved, after the task order was awarded, as the contracting officer’s representative,
and verified the invoices received from the contractor.                             Without segregation of
key steps in the process of awarding and administering the task orders, the Army
increases the risk for fraud, waste, and abuse.                          See Appendix F for the titles of the
Fort Knox officials who prepared the documents associated with the award of each
task order.           The Director, Mission and Installation Contracting Command, should
direct Fort Knox contracting officials to discontinue awarding task orders under
contract DABT23-84-C-0089 until adequate internal controls are in place. The Garrison
Commander, Fort Knox, Kentucky, should establish internal controls over the process

	 5	
       The project manager provided signature for 21 of the 108 IGCEs.



                                                                                                            DODIG-2014-107 │ 11
Finding



                 for awarding and administering UESC task orders, to include developing standard
                 operating procedures that incorporate internal controls throughout the process of
                 awarding and administering task orders under contract DABT23-84-C-0089 and
                 for any future energy contracts.     At a minimum, those internal controls should
                 include monitoring, supervision, and segregation of duties.

                                      Figure 4. Fort Knox’s Task Order Award Process




12 │ DODIG-2014-107
                                                                                                    Finding



Fort Knox Officials Did Not Make Fair and Reasonable
Price Determinations
The Fort Knox contracting officer did not determine
whether the prices paid for energy projects                         The Fort Knox
awarded using contract DABT23-84-C-0089 were                     contracting officer
fair and reasonable, as required by the Federal                  did not determine
                                                              whether the prices paid
Acquisition Regulation (FAR), and he was rarely             for energy projects awarded
involved in the negotiation process.       The FAR            were fair and reasonable,
requires that a contracting officer make a price             and he was rarely involved
                                                                  in the negotiation
reasonableness determination before awarding a
                                                                       process.
contract and that documentation supporting this
determination be retained in the contract file. In the
contract DABT23-84-C-0089 task order’s price negotiation
memorandums, Fort Knox Department of Public Works officials did not document
discussions of price negotiations. Instead, most officials included only the boilerplate
statement: “The utility and contractors appear to understand the scope of work
and the proposal appears reasonable.” The Fort Knox Department of Public Works
official’s statements in the price negotiation memorandums did not adequately
document a determination of fair and reasonable pricing, as required by the FAR.

FAR 15.402, “Pricing Policy,” requires contracting officers to “purchase supplies
and services from responsible sources at fair and reasonable prices.” In addition,
FAR 15.405 states,

           The purpose of performing cost or price analysis is to develop a
           negotiation position that permits the contracting officer and the
           offeror an opportunity to reach agreement on a fair and reasonable
           price. A fair and reasonable price does not require that agreement
           be reached on every element of cost, nor is it mandatory that the
           agreed price be within the contracting officer’s initial negotiation
           position. Taking into consideration the advisory recommendations,
           reports of contributing specialists, and the current status of the
           contractor’s purchasing system, the contracting officer is responsible
           for exercising the requisite judgment needed to reach a negotiated
           settlement with the offeror and is solely responsible for the final
           price agreement.


Price Negotiation Memorandums Were Vague
Fort Knox Department of Public Works officials prepared price negotiation
memorandums that did not describe how they determined the price was fair and



                                                                                          DODIG-2014-107 │ 13
Finding



                 reasonable.        The contracting officer awarded 99 of 104 task orders for the same
                 amount Nolin RECC proposed.6 In addition, Fort Knox Department of Public Works
                 officials prepared IGCEs that were frequently higher than the amount Nolin RECC
                 proposed, making it appear that the price Nolin RECC’s proposed was fair and
                 reasonable. The amounts the Department of Public Works officials proposed were
                 higher than the amounts Nolin RECC proposed for 100 of 103 task orders.7 According
                 to the Fort Knox energy program manager, the IGCEs were developed for multiple
                 buildings and were broad; therefore, he did not have the specifics to develop a more
                 detailed estimate.

                 However, Fort Knox officials provided vague explanations in the price negotiation
                 memorandums for why Nolin RECC’s proposals were accepted and why the IGCEs
                 were higher. For example, in the price negotiation memorandum for task order 51,
                 the energy program manager explained that the amount Nolin RECC proposed was
                 accepted because “the utility and contractors appear to understand the scope of
                 work, and the proposal appears reasonable.”

                 Additionally, the Fort Knox Department of Public Works official’s statements in the
                 price negotiation memorandums did not adequately demonstrate he had determined
                 prices were fair and reasonable, as required by the FAR. For example, the contracting
                 officer awarded task order 51 (January 22, 2004) for base-wide automation
                 integration; heating, ventilation, and air-conditioning improvements; and preventive
                 maintenance across 26 base facilities at Fort Knox, totaling $10,105,212.32.
                 Nolin RECC proposed a price for the improvements to the 26 buildings to be
                 $10,105,212.32, on October 31, 2003. In addition, the energy program manager’s
                 statement in the price negotiation memorandum for task order 51 did not adequately
                 show a determination of fair and reasonable price, as required by the FAR.


                 Contracting Officer Not Involved in the Price
                 Negotiation Process
                 Department of Public Works officials prepared the IGCEs and received a price
                 proposal from Nolin RECC, but the contracting officer was rarely involved in the
                 price negotiation process. FAR 15.402, “Pricing Policy,” requires contracting officers

                 	 6	
                     Of the 108 task orders, 4 were missing Nolin RECC’s proposal or the proposal did not have a set amount; therefore, we
                     could not determine whether the 4 task orders were awarded for the same amount Nolin RECC proposed.
                 	7	
                     Of the 108 task orders, 5 were missing Nolin RECC’s proposal, the proposal did not have a set amount, or the IGCE did
                     not have a set amount; therefore, we could not determine whether the IGCE was more than Nolin RECC’s proposal for
                     those 5 task orders.




14 │ DODIG-2014-107
                                                                                                 Finding



to “purchase supplies and services from responsible sources at fair and reasonable
prices.” However, the contracting officer was seldom involved in the price negotiation
and did not make fair and reasonable price determinations.           According to the
contracting officer, after the Department of Public Works official sent the contracting
officer the task order package, he checked to make sure the project forecast a payback
in energy savings and that Nolin RECC’s proposal was in line with the IGCE.
The contracting officer stated he had evaluated the package from an energy-savings
standpoint but that he could not verify the price was fair and reasonable because
of the number of technical factors involved in deciding whether the project should
be awarded. Therefore, Department of Public Works officials performed the price
evaluation before the contracting officer received it.      The U.S. Army Installation
Management Command issued guidance on March 13, 2014, requiring proposals to
be evaluated for fair and reasonable pricing and that pricing that appears significantly
higher than what is available on the market must be justified. The Director, Mission
and Installation Contracting Command, should develop standard operating procedures
and contracting officer guidance to complete determinations of fair and reasonable
price for UESCs, and should document the rationale for award amounts in the price
negotiation memorandums.  In addition, the Director, Mission and Installation
Contracting Command, should review the contracting officer’s actions in negotiating
and determining prices for contract DABT23-84-C-0089 task orders and, as appropriate,
take actions to hold the contracting officer accountable.


Conclusion
Fort Knox officials did not properly award and administer 108 task orders, valued
at about $270 million, from contract DABT23-84-C-0089, in energy-saving projects.
In addition, they could not document that projects achieved projected energy
savings. Fort Knox officials also did not establish internal controls over the award
and administration of the task orders; they did not meet the internal control standard
of control activities, including segregation of duties.  They also did not determine
whether the Government paid fair and reasonable prices.  As a result, Fort Knox
officials spent millions on projects that may not have achieved sufficient energy
savings to pay back the utility company’s investment as required, resulting in projects
that potentially failed to meet Department of Defense UESC criteria, and they have
no assurance they paid fair and reasonable prices.  Finally, the lack of adequate
internal controls increase the risk of errors or fraud.




                                                                                       DODIG-2014-107 │ 15
Finding



                 Management Comments on the Finding and
                 Our Response
                 Fort Knox Department of Public Works Comments on
                 the Finding
                 The Fort Knox Director of Public Works stated that the number of task orders we
                 reviewed should be fewer than 108, because many of the early UESC task orders were
                 to replace lighting systems on unmetered buildings.      He stated that measurement
                 and verification were conducted through a review of engineering calculations, which
                 does not require metering.

                 The Fort Knox Director of Public Works stated that the report appears to inaccurately
                 assert that detailed energy savings calculations were not considered in the submission
                 of projects being considered for task orders under the UESC. He also stated that
                 energy savings under the UESC were generally calculated for facilities using acceptable
                 engineering standards.   In addition, Fort Knox officials provided a chart showing
                 a decline in gas and electricity usage per square foot of space for the entire base
                 since 2003, below the goal established by the Energy Policy Act of 2005.

                 The Fort Knox Director of Public Works stated that the report suggests the ESPC
                 model should have been used, rather than the UESC authority. He added that several
                 agencies continue to support the ongoing use of the UESC model to achieve energy
                 savings and Fort Knox plans to transition to a new UESC in the next several months.


                 Our Response
                 We disagree with the Director’s comment that the number of reviewed task
                 orders should be fewer than 108. The lack of internal controls over the award and
                 administration of the task orders, and the failure to determine whether the
                 Government paid a fair and reasonable price apply to all 108 task orders. Therefore, we
                 did not revise this number.

                 We disagree with the Director’s comment that “the report appears to assert that
                 detailed energy savings calculations were not considered in the submission of
                 projects being considered for task orders under the UESC.” Although we agree that
                 energy-savings estimates were completed before the award of each task order, no
                 verification of actual savings was computed for each project. Therefore, as discussed




16 │ DODIG-2014-107
                                                                                              Finding



in the report, Fort Knox officials have no assurance the projects actually achieved
the projected savings. In addition, we do not dispute that gas and electricity usage
has declined for the base as a whole as shown in the chart provided. However, our
concern is whether the individual projects completed using the UESC met the intent
of the program and achieved sufficient energy savings to pay back the investment.
Therefore, we did not revise the report.

Finally, we disagree with the Director’s comment that the report suggests Fort Knox
officials should be using the ESPC model, rather than the UESC authority. The report
compares ESPCs and UESCs to show the similarities as well as the differences in the
policies and procedures that regulate each. We discussed the policies and procedures
used with the ESPC model to demonstrate the types of controls that should be
in place for UESCs.   By implementing policies and procedures similar to those in
place for ESPCs, Army officials will improve internal controls and reduce the risk
of errors or fraud. Therefore, we did not revise the report.


Recommendations, Management Comments, and
Our Response
Recommendation 1
We recommend that the Garrison Commander, Fort Knox, Kentucky:

        a.	 Establish policies and procedures to track energy savings for individual
           projects awarded under utility energy services contract task orders.

U.S. Army Garrison, Fort Knox Comments
The Garrison Commander, Fort Knox, Kentucky agreed, stating that in coordination
with the Huntsville Corps of Engineers, policies and procedures to track energy
savings for individual projects will be developed jointly. Furthermore, and effective
immediately, the Department of Public Works will not request additional task orders
under contract DABT23-84-C-0089.


Our Response
Comments from the Garrison Commander, Fort Knox, Kentucky, addressed all specifics
of the recommendation, and no further comments are required.




                                                                                    DODIG-2014-107 │ 17
Finding



                         b.	 Coordinate with appropriate contracting officials and establish
                            internal controls over the process for awarding and administering
                            utility energy services contract task orders, to include developing
                            standard operating procedures that incorporate internal controls
                            throughout the process of awarding and administering task orders
                            under contract DABT23-84-C-0089 and for any future energy contracts.
                            At a minimum, those internal controls should include monitoring,
                            supervision, and segregation of duties.

                 U.S. Army Garrison, Fort Knox Comments
                 The Garrison Commander, Fort Knox, Kentucky, agreed, stating that the Department
                 of Public Works will work with the Huntsville Corps of Engineers to verify internal
                 controls over the process for awarding and administering utility energy services
                 contract task orders and that all controls will be in place before Fort Knox awards
                 a task order against the new utility energy services contract.   The expected time
                 needed to award a new utility energy services contract is 6 months to 1 year.
                 Furthermore, the Department of Public Works established an analyst position to allow
                 for segregation of duties from those of the energy manager. The Deputy Garrison
                 Manager anticipates filling the position by December 31, 2014.


                 Our Response
                 Comments from the Garrison Commander, Fort Knox, Kentucky, addressed all specifics
                 of the recommendation, and no further comments are required.


                 Recommendation 2
                 We recommend that the Director, Mission and Installation Contracting Command:

                         a.	 Direct Fort Knox contracting officials to discontinue awarding task
                            orders under contract DABT23-84-C-0089 until adequate internal
                            controls are in place.

                         b.	 Develop standard operating procedures and contracting officer
                            guidance to complete fair and reasonable price determinations for
                            utility energy services contracts, and to document the rationale for
                            award amounts in the price negotiation memorandums.




18 │ DODIG-2014-107
                                                                                                Finding



        c.	 Review the contracting officer’s actions in negotiating and determining
           prices for contract DABT23-84-C-0089 task orders and, as appropriate,
           initiate actions to hold the contracting officer accountable.


Management Comments Required
The Director, Mission and Installation Contracting Command, did not provide comments
on the draft report. We request that the director provide comments on the final report.




                                                                                      DODIG-2014-107 │ 19
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from August 2013 through July 2014 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence
                 to provide a reasonable basis for our findings and conclusions based on our audit
                 objectives. We believe that the evidence obtained provides a reasonable basis for
                 our findings and conclusions based on our audit objectives.


                 Review of Documentation and Interviews
                 We obtained and reviewed contract DABT23-84-C-0089 (April 1, 1984) between
                 the Department of the Army and Nolin RECC for electrical services at Fort Knox.
                 We obtained and reviewed the three modifications to contract DABT23-84-C-0089.
                 The first modification (January 22, 1996), created the UESC agreement between the
                 Department of the Army and Nolin RECC. The other two modifications (May 16, 2002,
                 and February 1, 2006), made minor changes to the existing UESC agreement.
                 We obtained and reviewed all 108 task orders issued from the contract, totaling about
                 $270 million, with award dates ranging from March 28, 1996, to September 25, 2013.
                 Of the 108 task orders, 8 were missing the prenegotiation memorandum, 13 were
                 missing the price negotiation memorandum, and 2 were missing Nolin RECC’s proposal.
                 contract DABT23-84-C-0089 was the only UESC awarded by Fort Knox; therefore,
                 we limited our review to contract DABT23-84-C-0089, the modifications, and task
                 orders awarded from the contract. For each task order, we reviewed the available
                 award document, scope of work, IGCE, Nolin RECC’s price proposal, prenegotiation
                 memorandum, and price negotiation memorandum.

                 We interviewed personnel from the Office of the Deputy Under Secretary of Defense
                 for Acquisition, Technology, and Logistics; the Assistant Chief of Staff for Installation
                 Management; and the U.S. Army Installation Management Command, to determine their
                 involvement with the oversight of UESCs. At Fort Knox, we interviewed personnel from
                 Contracting, Department of Public Works, and Resource Management to understand
                 their involvement in awarding and administering the UESC at Fort Knox. We visited
                 some projects Fort Knox officials have completed using the UESC.




20 │ DODIG-2014-107
                                                                                                                            Appendixes



We reviewed FAR Part 15, “Contracting by Negotiation”; Section 8256, Tile 42,
United States Code (10 U.S.C. § 8256), “Incentives for Agencies”; 10 U.S.C. § 2913,
“Energy Savings Contracts and Activities”; Energy Policy Act 2005; the U.S. Department
of Energy’s Executive Order 13423, “Strengthening Federal Environmental, Energy,
and Transportation Management”; Executive Order 13514, “Federal Leadership in
Environmental, Energy, and Economic Performance”; Federal Energy Management
Program, UESC, Enabling Documents; Army Managers’ Internal Control Program; DoD
Instruction 5010.40, “Managers’ Internal Control Program Procedures”; and Government
Accountability Office, “Standards for Internal Control in the Federal Government,”
November 1999.*


Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.


Use of Technical Assistance
We did not use technical assistance in conducting this audit.




*	
     GAO was known as the General Accounting Office when it published “Standards for Internal Control in the Federal
     Government” in November 1999.




                                                                                                                       DODIG-2014-107 │ 21
Appendixes




                 Appendix B
                 Prior Coverage
                 During the last 5 years, GAO, Army Audit Agency, and Naval Audit Service issued
                 11 reports discussing utility energy services contracts and internal controls.
                 Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
                 Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
                 Internet at https://www.aaa.army.mil/. Naval Audit Service reports are not available
                 over the Internet.


                 GAO
                 Report No. GAO-12-260, “Federal Agencies Implement Hundreds of Initiatives,”
                 February 27, 2012

                 Report No. GAO-10-22, “Agencies Are Taking Steps to Meet High-Performance
                 Federal Building Requirements, but Face Challenges,” October 30, 2009


                 Army
                 Report No. A-2013-0107-ALC, “Contracting Oversight, Quality Control and Accountability,”
                 June 25, 2013

                 Report No. A-2013-0089-IEE, “Use of Energy Efficient Lighting,” May 8, 2013

                 Report No. A-2013-0085-ALE, “Energy Conservation in Europe,” April 19, 2013

                 Report No. A-2013-0027-FMR , “The Army Managers’ Internal Control Program for
                 FY 12,” December 21, 2012

                 Report No. A-2012-0017-ALC, “U.S. Army Mission and Installation Contracting
                 Command Center, Fort Knox and U.S. Army Corps of Engineers, Sacramento District”
                 November 10, 2011




22 │ DODIG-2014-107
                                                                                      Appendixes



Navy
Report No. N2013-0031, “Follow up on Internal Controls Over Department of the Navy
Energy Funding and Financing Tools,” June 13, 2013

Report No. N2012-0004, “Strategy for Considering Energy Efficient and Renewable
Energy Initiatives Associated with the United States Marine Corps Guam Relocation
Effort,” November 15, 2011

Report No. N2011-0049, “Internal Controls Over Spending Within the Department of
the Navy Shore Energy Program,” August 9, 2011

Report No. N2011-0023, “Internal Controls Over Department of the Navy Energy
Funding and Financing Tools,” March 4, 2011




                                                                                 DODIG-2014-107 │ 23
Appendixes




                 Appendix C
                 Contract Comparison
                 UESCs and ESPCs both provide a cost effective way for agencies to reduce energy
                 consumption without incurring up front capital costs. The Table shows a comparison
                 of UESCs and ESPCs.

                 Table. Comparison of Contracts
                                                      ESPC                                    UESC
                                                                           Energy Policy Act 2005; 42 U.S.C. 8256; 10
                                            Energy Policy Act 2005; 42
                       Authorization                                       U.S.C. 2913; 10 U.S.C. 2866; 48 CFR 41; 48
                                             U.S.C. 8287; 10 CFR 436                         CFR 16
                        Competition                Competitive                        Sole source to utility
                                          Contract with energy services
                      Contracting Party                                               Contract with utility
                                                    company
                                            Guaranteed performance
                        Performance                                          Guaranteed performance negotiable
                                                   required
                            Term               25 years maximum            Up to 25 years allowed; Varies by agency
                         Payments                    Invoice                          Utility bill or invoice
                                          M&V and annual energy audit
                           M&V                                             M&V and annual energy audit negotiable
                                                   required
                       Operation and       Operation and Maintenance        Operation and Maintenance negotiable
                       Maintenance             typically included
                          Contract         Agency coordinates contract           Agency coordinates contract
                        Coordination
                                               Typically, no existing
                         Contractor                                           Relationship with utility usually well
                                           relationship is in place with
                        Relationship                                                      established
                                            energy services company.
                         Time and           Time and resource-intense       Reduced time and resources needed for
                         Resource                   process                           selection process
                       Requirements
                      Legend
                      CFR	     Code of Federal Regulations
                      ESPC	    Energy Savings Performance Contract
                      M&V	     Measurement and Verification
                      UESC	    Utility Energy Services Contract
                      U.S.C	   United States Code




24 │ DODIG-2014-107
                                                                                                                                       Appendixes




Appendix D
Task Orders Reviewed
Task Orders issued from contract DABT23-84-C-0089 by U.S. Army Contracting Command, Fort Knox
                                                                                                                           Value after
          Task Order                                    Description                          Award Date   Award Amount     Modification
   1           1                         Replace/retrofit lighting in building T-15           3/28/1996        $6,294.38
   2           2                     Replace/retrofit lighting in buildings T-16 and 73       3/28/1996         6,332.47
   3           3                    Replace/retrofit lighting in buildings 1384 and 4248      4/19/1996        37,484.78
   4           4                          Power factor correction substation 12C               5/6/1996        12,412.00
   5           5                        Replace/retrofit lighting in three buildings          5/16/1996        51,963.27
   6           6                     Replace/retrofit lighting in buildings 4554 - 2781       7/18/1996        42,879.29
   7           7                          Install infrared heating in building 1703           8/14/1996        35,154.85
   8           8                      Insulate glass in buildings 850, 5927, and 6591         6/11/1996        38,728.03
   9           9                        Replace/retrofit lighting in Yano tank Range          8/14/1996         3,926.04
   10         10                           Power factor correction water plant                7/18/1996        16,050.00
   11         11                    Replace/retrofit lighting in buildings 167 and 9309       8/14/1996        26,295.14
   12         12                        Replace/retrofit lighting in three buildings          9/18/1996       113,537.38     $138,929.98
   13         13                                Decrease electrical demand                    9/11/1997       603,855.57
   14         14                    Retrofit lighting in buildings 6546, 6547, and 6548       2/27/1997        96,808.95
   15         15                             Retrofit lighting in building 1720               2/20/1997        23,930.66
   16         16                             Retrofit lighting in building 1724               2/20/1997        77,431.25
   17         17                             Retrofit lighting in building 1726               2/20/1997        52,225.25
   18         18                             Retrofit lighting in building 1730               3/11/1997        27,813.53
   19         19                             Retrofit lighting in five buildings               2/6/1997       122,307.42
   20         20                 Retrofit lighting in buildings 6010, 6011, 6015, and 6017    2/27/1997       105,935.99

Acronyms used throughout Appendix D are defined on the final page of Appendix D.

                                                                                                                                  DODIG-2014-107 │ 25
Appendixes



         Task Orders Reviewed (cont’d)
         Task Orders issued from contract DABT23-84-C-0089 by U.S. Army Contracting Command, Fort Knox

                                                                                                                                                 Value after
                      Task Order                                    Description                                    Award Date   Award Amount     Modification
             21          21                              Insulate pipes and water heaters                           9/11/1997        26,706.13
             22          22                              Retrofit lighting in building 6578                         1/13/1998        15,888.75
             23          23                     Retrofit lighting in buildings 2601, 2607, and 2778                11/12/1997        11,066.05
             24          24                     Retrofit lighting in buildings 2783, 4401 and 6590                  1/13/1998        40,700.50
             25          25                        Replace and renovate HVAC in building 1468                       7/16/2004     1,418,892.97     1,685,146.42
             26          26                        Retrofit lighting in buildings 1197 and 4768                     1/15/1998        26,682.43
             27          27                      Install infrared heating system in three buildings                  3/5/1998       160,446.50
             28          28                               Retrofit lighting in 29 buildings                          3/5/1998       389,486.10
             29          29                               Retrofit lighting in six buildings                        3/12/1998        99,185.58
             30          30                               Retrofit lighting in 12 buildings                          7/9/1998        58,874.56
             31          31                  Retrofit lighting in buildings 1131, 1726, 5217, and 6551               7/9/1998        62,536.47
             32          32                Install infrared heating system in buildings 1054A and 5222              9/30/1998       182,898.31
             33          33                   Replace lighting in 11 buildings and weather proofing                  1/8/1999       121,723.48
             34          34                  Retrofit lighting in 12 buildings; miscellaneous insulation             4/1/1999       145,468.59
             35          35                     Replace lights, exit signs, occupancy sensors, etc.                 6/15/1999       284,414.56
             36          36                  Retrofit lighting in 14 buildings; miscellaneous insulation            4/22/1999       103,121.83
             37          37            Replace lighting in 16 buildings; miscellaneous infrared thermostats         8/24/1999       193,743.35
                                           Replace lights in several buildings; miscellaneous insulating,
             38          38                                                                                          2/4/2000       271,577.77
                                                      weatherproofing and infrared heating
                                   Replace lights in buildings 1054 and 2944; replace porch light family housing
             39          39                                                                                         7/19/2000       232,112.96
                                               quarters; spray foam insulate glass in eight buildings
             40          40            Install windows and HVAC; spray foam insulate glass in six buildings         9/26/2000       693,128.88

         Acronyms used throughout Appendix D are defined on the final page of Appendix D.



26 │ DODIG-2014-107
                                                                                                                                                      Appendixes



Task Orders Reviewed (cont’d)
Task Orders issued from contract DABT23-84-C-0089 by U.S. Army Contracting Command, Fort Knox

                                                                                                                                          Value after
          Task Order                                      Description                                       Award Date   Award Amount     Modification
                        Install water heater in building 6580; infrared heater in five buildings in high
   41         41                                                                                            11/30/2000       956,533.99
                                     bay areas; install lighting in miscellaneous buildings
                         Insulate steam pipes in the 6500 block; Install light-stats and reduce glass
   42         42                                                                                             4/11/2001       572,347.28
                                area in two buildings; install lighting and occupancy sensors
   43         43               Replace heat to airport complex; seal windows and roof leaks                  6/18/2001       739,120.69
   44         44                                 Building automation system                                  7/19/2001     3,102,447.05
   45         45                                    Replace hospital chiller                                 7/11/2001     6,723,311.52     7,697,741.52
                        Replace traffic signal, guard shack, and five buildings with efficiency lighting;
   46         46        insulate about 10 buildings; install occupancy sensors, porch lights, infrared       9/20/2001       997,026.00
                                                            heating
   47         47                        Install window and HVAC in several buildings                          5/7/2002     5,661,824.06
   48         48                         Improve and repair energy recovery system                           7/30/2002     5,168,241.30
   49         49                  Replace and renovate HVAC in the Disney-area barracks                      6/22/2004    12,164,165.00    20,881,885.54
   50         50                   Perform energy conservation measures in six buildings                     8/22/2002     2,083,947.10     2,101,007.62
                          Integrate base-wide automation, improve HVAC, and conduct preventive
   51         51                                                                                             1/22/2004    10,105,212.32     9,957,075.35
                                           maintenance across 26 base facilities
   52         52                    Replace and renovate HVAC in buildings 126 and 127                        8/3/2004     1,566,120.03
   53         53                             Renovate HVAC and retrofit controls                             7/16/2004     4,825,759.82     7,187,541.32
   54         54                   Replace and renovate HVAC in buildings 1384 and 2368                      2/20/2003     1,723,763.48
   55         55             Conduct HVAC energy conservation measures in medical facilities                 9/25/2004       661,935.37     1,051,892.00
   56         56                        Replace and renovate HVAC in four buildings                          12/9/2005     4,471,971.53     6,233,157.52
   57         57                                 Improve and maintain HVAC                                   7/23/2003     2,097,938.28
   58         60                Install tracer summit controls on infrared and HVAC systems                  1/30/2006     3,809,482.09    13,663,369.60

Acronyms used throughout Appendix D are defined on the final page of Appendix D.



                                                                                                                                                 DODIG-2014-107 │ 27
Appendixes



         Task Orders Reviewed (cont’d)
         Task Orders issued from contract DABT23-84-C-0089 by U.S. Army Contracting Command, Fort Knox

                                                                                                                                                      Value after
                      Task Order                                   Description                                      Award Date   Award Amount         Modification
             59          61                          Renovate HVAC in Wickham guest house                             9/9/2004       622,545.00           691,328.34
                                   Replace and renovate HVAC in buildings including boiler installation, fan coil
             60          62                                                                                          4/23/2004     1,715,503.07
                                                          replacement, and controls
             61          64                  Replace and renovate HVAC in buildings 2385 and 2723                    8/13/2004     1,921,089.05         1,978,408.45
             62          65                Install geothermal heat pumps for new Army lodging facility               4/21/2006     1,175,243.38         1,209,085.38
             63          66             Install geothermal heat pump system in buildings 6573 and 6574               6/25/2010     1,160,535.21
             64          67                        Replace and renovate HVAC in building 1227                       10/14/2004       775,013.18
             65          69                  Renovate HVAC for 2300 Hammerhead block of facilities                    7/7/2005    10,129,634.49        10,287,994.49
             66          70                                     Extract natural gas                                   8/7/2007     2,801,298.64   1


             67          71                         Renovate HVAC in Hammerhead facilities                            2/2/2006     6,486,077.64
             68          72                      Add resources efficiency management services                        9/28/2007     2,057,456.81
             69          73                    Renovate geothermal HVAC system in five buildings                     3/10/2006     4,733,217.89         5,194,641.75
             70          74                        Replace and renovate HVAC in building 1053                        4/21/2006       997,937.33           985,865.04
             71          75                           Retrofit geothermal heat pump system                           3/28/2007    13,576,652.22        14,725,336.57
                                   Perform energy services and preventive maintenance for buildings 296, 297,
             72          76                                                                                         10/17/2006     6,146,410.51         6,499,104.66
                                                        298, and Performing Arts Center
                                     Install geothermal heating, cooling, and domestic hot water systems in
             73          77                                                                                         10/25/2007     3,238,680.35        12,374,759.82
                                                            buildings 6578 and 6579
             74          78              Convert several buildings in to geothermal heating and cooling              6/18/2009    16,680,416.52
                                    Install geothermal heating and cooling systems and energy management
             75          79                                                                                          6/27/2006    31,831,340.36        33,922,715.50
                                                          controls in various buildings
             76          80                              Upgrade HVAC in building 6434                               1/22/2010    11,795,624.17
             77          81                 Expand building automation controls in barracks buildings                6/27/2008     1,386,046.40         5,151,436.87
             78          82               Install auto flush valves, microbial urinal system, and aerators           3/17/2008     1,070,000.00

         Acronyms used throughout Appendix D are defined on the final page of Appendix D.

28 │ DODIG-2014-107
                                                                                                                                                    Appendixes



Task Orders Reviewed (cont’d)
Task Orders issued from contract DABT23-84-C-0089 by U.S. Army Contracting Command, Fort Knox

                                                                                                                                        Value after
          Task Order                                     Description                                     Award Date   Award Amount      Modification
                           Install energy saving technologies in Henry House to establish net zero
   79         84                                                                                          9/27/2009       966,000.28
                                                           building
                        Repair HVAC in 6500 block, including new control systems and conversion to
   80         85                                                                                          9/11/2007     4,792,369.51
                                              condensing boiler technology
                         Repair HVAC in building 5949, including replacing existing boiler and chiller
   81         86                                                                                          9/11/2007       407,435.82
                                     system with new geothermal heat pump system
   82         87         Spray foam roofs of McDonald school buildings and Crittenberger building         9/28/2007       502,161.74
   83         88                                Upgrade lighting commissary                              10/25/2007        59,083.49
   84         89                Replace domestic hot water system and retrofit exit lighting              5/21/2009     3,634,954.46
   85         91                                Install solar photovoltaic grid                           9/15/2010     5,809,030.00
   86         93              Install geothermal heating and cooling systems in building 9310             2/19/2009     1,968,659.26
                        Convert four buildings in to geothermal; convert building 2730 to air source
   87         94                                                                                           9/8/2010     7,499,870.45
                                                        heat pumps
   88         95             Upgrade electric and gas meters to 2010 standard in 168 buildings            5/21/2009     3,565,553.11
   89         96          Install geothermal system in building 6289 and install program controls          9/4/2009       618,601.96
                         Install prismatic sun optic daylights; replace halide fixtures with photocell
   90         97         and occupancy sensors in miscellaneous buildings; update carpenter test          11/2/2009     1,107,752.00
                                                         road facilities
   91         99                        Add blown insulation into 1,100 home attics                       11/2/2009     1,448,151.38
   92         100                     Add resource efficiency management services II                      1/24/2011     2,248,238.69

   93         101                          Install lighting controls in building 1307                     5/24/2011       458,374.00

   94         102                                     Extract natural gas                                 6/10/2011             0.002
                          Install geothermal heating, cooling exhaust system in building 9312 and
   95         103                                                                                         6/10/2011     2,015,344.58      2,497,025.67
                                          install day light system in building 1101
   96         105                     Perform energy efficient upgrades to six buildings                   9/2/2011    10,075,388.62

Acronyms used throughout Appendix D are defined on the final page of Appendix D.

                                                                                                                                               DODIG-2014-107 │ 29
Appendixes



         Task Orders Reviewed (cont’d)
         Task Orders issued from contract DABT23-84-C-0089 by U.S. Army Contracting Command, Fort Knox

                                                                                                                                                                                            Value after
                           Task Order                                                Description                                                Award Date          Award Amount            Modification
                                             Perform energy efficient upgrades to include converting to geothermal heat
               97              106           pumps, high efficiency hot water boilers, and sub metering in miscellaneous                          7/12/2011             8,587,318.23
                                                                              buildings
               98              109                              Install geothermal upgrades to seven buildings                                    9/19/2012             8,314,175.33          9,282,985.55
               99              110                      Create a hybrid geothermal pond/lake for Maude complex                                      8/3/2012            1,403,500.81          1,548,817.51
                                              Provide metered gas tap for in and out movement of gas including biogenic
              100              111                                                                                                                7/26/2012             2,034,755.69
                                                                renewable methane gas production
              101              112                         Provide energy services for Army Community Hospital                                    9/27/2012             4,019,482.68
                                             Relocate 6500 block boilers for domestic hot water system in the 2300 block
              102              113                                                                                                                9/19/2012                463,308.22
                                                            to high efficiency domestic hot water system
                                                Perform preventive maintenance and energy sustainment services to 16
              103              114                                                                                                                6/12/2013             1,261,655.52
                                                                             buildings
                                               Perform preventive maintenance and energy sustainment services to six
              104              115                                                                                                                6/12/2013                646,707.00
                                                                            buildings
              105              119                     Upgrade water system to Ireland Army Community Hospital                                    9/25/2013             2,079,545.00
              106               2C                                       Retrofit lighting in building 121                                        9/11/1997                    66,560.09
              107               1S                                    Replace lights in community schools                                         4/14/1997                259,944.20
              108               3S3                            Install occupancy sensors and emergency lights                                     9/11/1997                    32,581.50
                                                                                    Total                                                                           $270,118,394.77        $310,394,315.80
             	1	
                   Total value of task orders 70 and 102 as of January 2012.
             	2	
                   Value added in task order 70.
             	3	
                   Not all proposed energy projects resulted in the Fort Knox Contracting Officer awarding a task order resulting in some task order numbers not being used.

             Legend
             HVAC 	 Heating, ventilation and air conditioning

         	



30 │ DODIG-2014-107
                                                                                                                             Appendixes




Appendix E
Standards for Internal Control in the
Federal Government
The Federal Managers’ Financial Integrity Act of 1982 requires the Government
Accountability Office (GAO)1 to issue standards for internal control in Government.
The standards provide the overall framework for establishing and maintaining internal
control and for identifying and addressing major performance and management
challenges and areas at greatest risk of fraud, waste, abuse, and mismanagement.
“Internal Control” is defined as an integral component of an organization’s management
that provides reasonable assurance that the following objectives are being achieved:

              •	 effectiveness and efficiency of operations,

              •	 reliability of financial reporting, and

              •	 compliance with applicable laws and regulations.

A major part of managing an organization, internal control comprises the plans,
methods, and procedures used to meet missions, goals, and objectives and, in doing so,
support performance-based management. Internal control also serves as the first line
of defense in safeguarding assets and preventing and detecting errors and fraud.

The Five Standards for Internal Control are:

              •	 Control Environment,

              •	 Risk Assessment,

              •	 Control Activities,

              •	 Information and Communications, and

              •	 Monitoring.

These standards define the minimum level of quality acceptable for internal control in
Government and provide the basis against which internal control is to be evaluated.
These standards apply to all aspects of an agency’s operations: programmatic, financial,
and compliant.



	1	
      GAO was known as the General Accounting Office when it published “Standards for Internal Control in the Federal
      Government” in November 1999.




                                                                                                                        DODIG-2014-107 │ 31
Appendixes



                 Control Environment
                 Management and employees should establish and maintain an environment
                 throughout the organization that sets a positive and supportive attitude toward
                 internal control and conscientious management. A positive control environment is
                 the foundation for all other standards. It provides discipline and structure as well as
                 the climate that influences the quality of internal control.


                 Risk Assessment
                 Internal control should provide for an assessment of the risks the agency faces from
                 both external and internal sources.  A precondition to risk assessment is the
                 establishment of clear and consistent agency objectives. Risk assessment is identifying
                 and analyzing of relevant risks associated with achieving the objectives, such as
                 those defined in strategic and annual performance plans developed under the
                 Government Performance and Results Act, and forming a basis for determining how
                 risks should be managed.


                 Control Activities
                 Internal controls activities help ensure that management’s directives are carried out.
                 The control activities should be effective and efficient in carrying out the agency’s
                 control objectives.   Control activities are the policies, procedures, techniques, and
                 mechanisms that enforce management’s directives, such as the process of adhering
                 to requirements for budget development and execution.          They help ensure that
                 actions are taken to address risks and are an integral part of an entity’s planning,
                 implementing, reviewing, and accountability for stewardship of Government resources
                 and achieving effective results. Control activities occur at all levels and functions
                 of the entity. They include a wide range of diverse activities such as approvals,
                 authorizations, verifications, reconciliations, performance reviews, maintenance of
                 security, and the creation and maintenance of related records, which provide evidence
                 of execution of these activities as well as proper documentation. Activities may be
                 classified by specific control objectives, such as ensuring completeness and accuracy of
                 information processing.




32 │ DODIG-2014-107
                                                                                             Appendixes



The categories of control activities that are common to all agencies as listed below.

        •	 Top-Level Reviews of Actual Performance;

        •	 Reviews by Management at the Functional or Activity Level;

        •	 Management of Human Capital;

        •	 Controls over Information Processing;

        •	 Physical Control Over Vulnerable Assets;

        •	 Establishment and Review of Performance Measures and Indicators;

        •	 Segregation of Duties;

        •	 Proper Execution of Transactions and Events;

        •	 Accurate and Timely Recording of Transactions and Events;

        •	 Access Restrictions to and Accountability for Resources and Records; and

        •	 Appropriate Documentation of Transactions and Internal Control.


Information and Communications
Individuals should record and communicate information to management and others
in a form and within a time frame that enables the entity to carry out internal
control and other responsibilities. For an entity to run and control its operations, it
must have relevant, reliable, and timely communications relating to internal as well
as external events. Information is needed throughout the agency to achieve all its
objectives. Management should identify, capture, and distribute pertinent information
in a form and time frame that permits people to perform their duties efficiently.


Monitoring
Internal control monitoring should assess the quality of performance over time
and ensure the prompt resolution of findings of audits and other reviews. Agencies
should design internal control to ensure that ongoing monitoring occurs in the
course of normal operations and that it is performed continually and is ingrained in
the agency’s operations. It includes regular management and supervisory activities,
comparisons, reconciliations, and other actions people take in performing their
duties. Separate evaluations of controls can also be useful by focusing directly on
the control’s effectiveness at a specific time. The scope and frequency of separate




                                                                                        DODIG-2014-107 │ 33
Appendixes



                 evaluations should depend primarily on the assessment of risks and the effectiveness
                 of ongoing monitoring procedures.                            Separate evaluations may take the form
                 of self-assessments as well as review of control design and direct testing of
                 internal control.

                 Monitoring of internal controls should include policies and procedures for ensuring
                 the resolving of findings of audits and other reviews. Managers will (1) promptly
                 evaluate findings from audits and other reviews, including those showing deficiencies
                 and recommendations reported by auditors and others who evaluate agencies’
                 operations; (2) determine proper actions in response to findings and recommendations
                 from audits and reviews; and (3) complete, within established time frames, all actions
                 that correct or otherwise resolve the matters brought to management’s attention.
                 The resolution process begins when audit or other review results are reported to
                 management, and is completed only after action has been taken that (1) corrects
                 identified deficiencies; (2) produces improvements; or (3) demonstrates the findings
                 and recommendations do not warrant management action.2




                 	2	
                       Quoted from the Government Accountability Office, “Standard for Internal Control in the Federal Government Report,”
                       November 1999.




34 │ DODIG-2014-107
                                                                                                     Appendixes




Appendix F
Reviewer of Task Order Award Documentation
Task Orders issued From Contract DABT23-84-C-0089 by U.S. Army Contracting Command,
Fort Knox

        Task                                             Pre-Negotiation
                    SOW Signature            PNM                               IGCE Signature
        Order                                             Memorandum
  1         1         Chief, DPW           No PNM              None                   PM
  2         2         Chief, DPW           No PNM              None                   PM
  3         3        No signature          No PNM              None                   PM
  4         4        No signature        PM and EPM        PM and EPM                 PM
  5         5         Chief, DPW           No PNM              None                   PM
  6         6         Chief, DPW         PM and EPM        PM and EPM                 PM
  7         7         Chief, DPW         PM and EPM        PM and EPM                 PM
  8         8         Chief, DPW         PM and EPM            None                PM and EPM
  9         9         Chief, DPW         PM and EPM        PM and EPM                 PM
  10        10        Chief, DPW         PM and EPM        PM and EPM                 PM
  11        11        Chief, DPW         PM and EPM        PM and EPM                 PM
  12        12           EPM               No PNM              None                   PM
  13        13        Chief, DPW             EPM           PM and EPM                 PM
  14        14        Chief, DPW         PM and EPM        PM and EPM                 PM
  15        15        Chief, DPW         PM and EPM        PM and EPM                 PM
  16        16        Chief, DPW         PM and EPM        PM and EPM                 PM
  17        17        Chief, DPW         PM and EPM        PM and EPM                 PM
  18        18        Chief, DPW         PM and EPM        PM and EPM                 PM
  19        19        Chief, DPW         PM and EPM        PM and EPM                 PM
  20        20        Chief, DPW         PM and EPM        PM and EPM                 PM
  21        21        Chief, DPW         PM and EPM        PM and EPM                 PM
  22        22        Chief, DPW             EPM               EPM                    EPM
  23        23        Chief, DPW             EPM               EPM                    EPM
  24        24        Chief, DPW             EPM               EPM                    EPM
  25        25           EPM                 EPM               EPM                    EPM
  26        26        Chief, DPW             EPM               EPM                    EPM
  27        27        Chief, DPW             EPM               EPM                    EPM


Acronyms used throughout Appendix F are defined on the final page of Appendix F.




                                                                                                DODIG-2014-107 │ 35
Appendixes



                  Reviewer of Task Order Award Documentation (cont’d)
                  Task Orders issued From Contract DABT23-84-C-0089 by U.S. Army Contracting Command,
                  Fort Knox
                           Task                                            Pre-Negotiation
                                      SOW Signature            PNM                               IGCE Signature
                           Order                                            Memorandum
                      28      28        Chief, DPW             EPM               EPM                 EPM
                      29      29        Chief, DPW             EPM               EPM                 EPM
                      30      30        Chief, DPW           No PNM              EPM                 EPM
                      31      31        Chief, DPW             EPM               EPM                 EPM
                      32      32        Chief, DPW             EPM               EPM                 EPM
                      33      33        Chief, DPW           No PNM              EPM                 EPM
                      34      34        Chief, DPW             EPM               EPM                 EPM
                      35      35        Chief, DPW             EPM               EPM                 EPM
                      36      36        Chief, DPW           No PNM              EPM                 EPM
                      37      37        Chief, DPW             EPM               EPM                 EPM
                      38      38        Chief, DPW             EPM               EPM                 EPM
                      39      39        Chief, DPW             EPM               EPM                 EPM
                      40      40        Chief, DPW             EPM               EPM                 EPM
                      41      41        Chief, DPW             EPM               EPM                 EPM
                      42      42        Chief, DPW             EPM               EPM                 EPM
                      43      43        Chief, DPW             EPM               None                EPM
                      44      44        Chief DPW              EPM               EPM                 EPM
                      45      45        Chief DPW              EPM               EPM                 EPM
                      46      46           DPW                 EPM               EPM                 EPM
                      47      47           DPW                 EPM               EPM                 EPM
                      48      48           DPW               No PNM              EPM                 EPM
                      49      49           EPM                 EPM               EPM                 EPM
                      50      50        Chief, DPW             EPM               EPM                 EPM
                      51      51        Chief, DPW             EPM               EPM                 EPM
                      52      52        Chief, DPW             EPM               EPM                 EPM
                      53      53        Chief, DPW             EPM               EPM                 EPM
                      54      54           DPW                 EPM               EPM                 EPM
                      55      55           EPM                 EPM               EPM                 EPM
                      56      56        Chief, DPW             EPM               EPM                 EPM


                  Acronyms used throughout Appendix F are defined on the final page of Appendix F.




36 │ DODIG-2014-107
                                                                                                     Appendixes



Reviewer of Task Order Award Documentation (cont’d)
Task Orders issued From Contract DABT23-84-C-0089 by U.S. Army Contracting Command,
Fort Knox
        Task                                             Pre-Negotiation
                    SOW Signature            PNM                               IGCE Signature
        Order                                             Memorandum
  57        57        Chief, DPW             EPM               EPM                 EPM
  58        60           EPM                 EPM               EPM                 EPM
  59        61           EPM                 EPM               EPM                 EPM
  60        62           EPM                 EPM               EPM                 EPM
  61        64           EPM                 EPM               EPM                 EPM
  62        65           EPM                 EPM               EPM                 EPM
  63        66           EPM                 EPM               EPM                 EPM
  64        67           EPM                 EPM               EPM                 EPM
  65        69           EPM                 EPM               EPM                 EPM
  66        70           EPM                 EPM               EPM                 EPM
  67        71           EPM                 EPM               EPM                 EPM
  68        72           EPM                 EPM               EPM                 EPM
  69        73           EPM                 EPM               EPM                 EPM
  70        74           EPM                 EPM               EPM                 EPM
  71        75           EPM                 EPM               EPM                 EPM
  72        76           EPM                 EPM               EPM                 EPM
  73        77           EPM                 EPM               EPM                 EPM
  74        78           EPM               No PNM              None                EPM
  75        79           EPM                 EPM               EPM                 EPM
  76        80           EPM               No PNM              EPM                 EPM
  77        81           EPM             PM and EPM        PM and EPM              EPM
  78        82           EPM             PM and EPM        PM and EPM              DPW
  79        84           EPM                 EPM               EPM                 EPM
  80        85           DPW               No PNM              None                DPW
  81        86           EPM                 EPM               EPM                 EPM
  82        87           EPM                 EPM               EPM                 EPM
  83        88           EPM                 EPM               EPM                 EPM
  84        89           EPM                 EPM               EPM                 EPM
  85        91           EPM                 EPM               EPM                 EPM


Acronyms used throughout Appendix F are defined on the final page of Appendix F.




                                                                                                DODIG-2014-107 │ 37
Appendixes



                 Reviewer of Task Order Award Documentation (cont’d)
                 Task Orders issued From Contract DABT23-84-C-0089 by U.S. Army Contracting Command,
                 Fort Knox
                             Task                                                Pre-Negotiation
                                          SOW Signature             PNM                                 IGCE Signature
                             Order                                                Memorandum
                      86       93              EPM                  EPM                EPM                   EPM
                      87       94              EPM                  EPM                EPM                   EPM
                      88       95              EPM                  EPM                EPM                   EPM
                      89       96              EPM                  EPM                EPM                   EPM
                      90       97              EPM                  EPM                EPM                   EPM
                       91      99              EPM                  EPM                EPM                   EPM
                       92     100              EPM                No PNM               EPM                   EPM
                       93     101              DPW                  EPM                EPM                   EPM
                       94     102              EPM                  EPM                EPM                   EPM
                       95     103              EPM                  EPM                EPM                   EPM
                       96     105              EPM                  EPM                EPM                   EPM
                       97     106              EPM                  EPM                EPM                   EPM
                       98     109              EPM                  EPM                EPM                    No
                       99     110              EPM                  EPM                EPM                   EPM
                      100     111              EPM                  EPM                EPM                   EPM
                      101     112              EPM                  EPM                EPM                   EPM
                      102     113              EPM                  EPM                EPM                    No
                      103     114              EPM                  EPM                EPM                   EPM
                      104     115              EPM                  EPM                EPM                   EPM
                      105     119              DPW                  EPM               DPW                    DPW
                      106      2C           Chief, DPW              EPM                EPM               PM and EPM
                      107      1S           Chief, DPW          PM and EPM        PM and EPM                  PM
                      108     3S*           Chief, DPW              EPM                EPM                   EPM
                      * Not all proposed energy projects resulted in the Fort Knox Contracting Officer awarding a task
                        order resulting in some task order numbers not being used.
                      Legend
                      Chief DPW 	      Chief, Engineer Plans and Service Division, Department of Public Works
                      EPM		            Energy Program Manager
                      IGCE		           Independent Government Cost Estimate
                      PM 		            Project Manager
                      PNM		            Price Negotiation Memorandum
                      SOW		            Scope of Work




38 │ DODIG-2014-107
                                Management Comments




Management Comments
U.S. Army Garrison, Fort Knox




                                      DODIG-2014-107 │ 39
Management Comments



                 U.S. Army Garrison, Fort Knox (cont’d)




40 │ DODIG-2014-107
                                         Management Comments



U.S. Army Garrison, Fort Knox (cont’d)




                                               DODIG-2014-107 │ 41
Management Comments



                 U.S. Army Garrison, Fort Knox (cont’d)




42 │ DODIG-2014-107
                                         Management Comments



U.S. Army Garrison, Fort Knox (cont’d)




                                               DODIG-2014-107 │ 43
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      ESPC Energy Savings Performance Contract
                       FAR Federal Acquisition Regulation
                       GAO Government Accountability Office
                       IGCE Independent Government Cost Estimate
                      RECC Rural Electric Cooperative Corporation
                      UESC Utility Energy Services Contract
                      U.S.C. United States Code




44 │ DODIG-2014-107
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
